No. 19-831
IN THE

Supreme Court of the United States
ADAM JARCHOW AND MICHAEL D. DEAN,
Petitioners,
v.
STATE BAR OF WISCONSIN, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that all parties required to be served have been served,
on this 17th day of April, 2020. In accordance with Supreme Court Rule 29.3 and
the Court’s Order of April 15, 2020, I certify that all parties have agreed to electronic service, and therefore a copy of the Reply Brief for Petitioners filed in this matter
was served electronically upon:
Roberta F. Howell
Foley & Lardner LLP
150 E. Gilman Street
Suite 5000
Madison, WI 53703-1482
(608) 257-5035
rhowell@foley.com
Attorney for Respondents
Dated: April 17, 2020

ANDREW M. GROSSMAN
BAKERHOSTETLER LLP
1050 Connecticut Ave., N.W., Suite 1100
Washington, D.C. 20036
(202) 861-1697
agrossman@bakerlaw.com

